IN THE SUPREME COURT OF THE UNITED STATES

STEIN, ESTELLE
Petitioner
vs.

No:

19-0393

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
October 07, 2019
cc:

See Attached List

CLIFF M. STEIN
5345 PINE TREE DRIVE
MIAMI BEACH, FL 33140
ALEX P. ROSENTHAL
ROSENTHAL LAW GROUP
2115 N. COMMERCE PARKWAY
WESTON, FL 33326
JOHN G. CRABTREE
CRABTREE & AUSLANDER
240 CRANDON BOULEVARD
SUITE 101
KEY BISCAYNE, FL 33149

